                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress


                              October 1, 2006, to March 31, 2007
                                  TABLE OF CONTENTS




EXECUTIVE SUMMARY........................................................................................ 1
CONGRESSIONAL ACTIVITIES AND OUTREACH............................................. 9

     	     DEPARTMENT OF STATE

AUDITS ............................................................................................................... 17
INSPECTIONS .................................................................................................... 29
INFORMATION TECHNOLOGY.......................................................................... 41
INVESTIGATIONS................................................................................................ 43
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES.......... 49
APPENDIX 2: REPORTS ISSUED...................................................................... 51
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES...... 55
   Table 1: Questioned Costs
   Table 2: Funds To Be Put To Better Use
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS........ 57



     	     BROADCASTING BOARD OF GOVERNORS


AUDITS............................................................................................................... .65
INSPECTIONS..................................................................................................... 67
INVESTIGATIONS................................................................................................ 69
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS INVESTIGATIVE
   ACTIVITIES................................................................................................... .71
APPENDIX 2: REPORTS ISSUED....................................................................... 73
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES....... 75
   Table 1: Questioned Costs
    Table 2: Funds To Be Put To Better Use

LIST OF ABBREVIATIONS.................................................................................. 77
                          EXECUTIVE SUMMARY




The auditors, inspectors, investigators, and other professionals in the Office of
Inspector General (OIG) promote effective management, accountability, and positive
change in the Department of State (Department), the Broadcasting Board of
Governors (BBG), and the foreign affairs community. They provide leadership to:

•	 promote integrity, efficiency, effectiveness, and economy;

•	 prevent and detect waste, fraud, abuse, and mismanagement;

•	 identify vulnerabilities and recommend constructive solutions;

•	 offer expert assistance to improve Department and BBG operations;

•	 communicate timely, useful information that facilitates decision-making and 		
	 achieves measurable gains; and

•	 keep the Department, BBG, and the Congress fully and currently informed.

This report summarizes work carried out by OIG during the period October 1,
2006, through March 31, 2007, which included the issuance of 44 reports of audits,
inspections, and other reviews with recommendations to improve Department and
BBG programs and operations. A full list of reports issued during this period can be
found in Appendix 2.




Iraq/Afghanistan Oversight

OIG received an allocation of $1.3 million from the FY 2005 Supplemental and $1.7
million from the FY 2006 Supplemental for oversight related to Iraq and Afghani-
stan. Thus far in FY 2007, OIG has received no such funding. Nevertheless, OIG
has performed work in those areas.

An interagency assessment of the Afghanistan Police Training and Readiness Pro-
gram, conducted jointly with the Department of Defense OIG, judged that the U.S.-
funded program to train and equip the Afghan National Police (ANP) was generally


Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   
    well conceived and well executed. However, long-term U.S. and international assis-
    tance and funding, at least beyond 2010, will be required to institutionalize the police
    force and establish a self-sustaining program. Obstacles to establishing a fully profes-
    sional ANP included no effective field training officer program, illiterate recruits, a
    history of low pay and pervasive corruption, and an insecure environment. Building
    the ANP requires a comprehensive, integrated approach that encompasses leadership
    training, sustaining institutions and organizations, and oversight and internal con-
    trol mechanisms, as well as long-term commitment from coalition and international
    partners. Management of the police training contract was problematic and required
    more effective coordination between Department contract managers and the Com-
    bined Security Transition Command-Afghanistan, which is responsible for executing
    ANP training programs. The report observed that until the Afghan criminal justice
    system — including law enforcement, judiciary, and corrections — matures and is
    synchronized and coordinated from the national to the local level such that laws are
    standardized and uniformly applied, the ANP will function more as a security force
    than a law enforcement organization.

    OIG and the Special Inspector General for Iraq Reconstruction (SIGIR) jointly per-
    formed an audit of a $188.7-million contract task order that provided civilian police
    training support in Iraq. The report concluded that poor contract administration by
    the Bureau of International Narcotics and Law Enforcement Affairs (INL) and the
    Bureau of Administration’s Office of Acquisitions Management (A/LM/AQM) had
    resulted in millions of dollars put at unnecessary risk. The review identified $36.4
    million for weapons and equipment that could not be accounted for because invoices
    were vague and there was insufficient backup documentation, costs of about $43.8
    million for manufacturing and temporary storage of a residential camp that had
    never been used, and expenditure of $4.2 million in unauthorized work associated
    with the residential camp.

    The House Appropriations Subcommittee on State, Foreign Operations, and Related
    Programs held a hearing in February 2007 on audit and oversight activities related
    to Iraq. Inspector General Howard J. Krongard testified with the Inspector General
    of the U.S. Agency for International Development and SIGIR on OIG’s oversight
    activities in Iraq. Inspector General Krongard also testified, along with the Comp-
    troller General, the Acting Inspector General of the Department of Defense, and
    SIGIR, at a January 2007 House Armed Services Committee hearing on audits of
    reconstruction and support activities in Iraq.





    Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
Having undertaken to the Iraqi Inspectors General and Embassy Baghdad, during
his September 2006 visit to Iraq, to identify someone experienced in the U.S. Inspec-
tor General community to become Senior Advisor to the Iraqi IGs, Inspector Gen-
eral Krongard identified such a person, who was hired by the Iraq Reconstruction
Management Office and relocated to Baghdad.




Financial Management

OIG issued six reports related to the Department’s financial statements and the
International Cooperative Administrative Support Services’ financial statements,
and two reports on financial systems performed in conjunction with the financial
statement audits. The Chief Financial Officers (CFO) Act, as amended, requires
that Department and BBG financial statements be audited. At the November 15,
2006, deadline imposed by the Office of Management and Budget (OMB) for issu-
ing audited financial statements, the independent external auditor retained by OIG
was unable to express an opinion on the 2006 and restated 2005 financial statements
because the Department was unable to provide complete financial statements or
respond to requests for evidential material in a timely manner. The Department later
provided complete financial statements and adequate documentation to support
the amounts reported. The independent external auditor satisfied themselves that
the restated 2006 and 2005 financial statements were presented fairly, in all material
respects, in conformity with accounting principles generally accepted in the United
States. The independent external auditor did not report any material weaknesses, but
did find reportable conditions related to internal control deficiencies and instances
of noncompliance with selected provisions of applicable laws and regulations involv-
ing the Department’s financial systems.

OIG also conducted six indirect cost rate reviews, all but one of which found that
the indirect cost rates reported by the various grantees complied with applicable
regulations. OIG found that one grantee’s indirect cost rates for FYs 2002-05 did not
comply with federal regulations or its own internal organizational policy. OIG ques-
tioned indirect costs totaling $5,652,439 and direct costs totaling $176,244.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   
    Security of People and Facilities

    One of the most crucial challenges for the Department and BBG continues to be
    providing for the protection of people and facilities. During this semiannual report-
    ing period, OIG issued five classified security annexes in conjunction with manage-
    ment reviews of embassies and constituent posts in Kyiv, Minsk, Moscow, Vienna,
    and Warsaw. Summaries of the annexes are provided in a classified annex to this
    report.

    An inspection of the Bureau of Diplomatic Security’s (DS) Office of Training and
    Performance Support (TPS) found that the office was well managed and generally
    successful in meeting the bureau’s training goals. However, new training require-
    ments for all U.S. government employees assigned to Iraq and Afghanistan had
    placed enormous stress on TPS’s administrative and financial infrastructure.

    An audit of the Emergency Preparedness Program at the Department’s Washington,
    DC, facilities found that the Department had not clearly defined specific roles and
    responsibilities, developed policies and procedures to guide the program, nor com-
    plied with all related federal regulations and directives. Facility Emergency Action
    Plans at some Washington metropolitan facilities either did not exist or were outdat-
    ed or noncompliant, and some facilities lacked emergency escape route signage and
    markings. OIG recommended corrective actions to address these shortcomings.




    Inspections of Department Missions and
    Programs

    During this reporting period, OIG issued management inspection reports for em-
    bassies in Kyiv, Minsk, Moscow, Vienna, and Warsaw, as well as the U.S. Mission to
    the Organization for Security and Cooperation in Europe and the U.S. Mission to
    International Organizations in Vienna. During the course of its overseas inspections,
    OIG identified a number of best practices as well as potential cost efficiencies and
    other improvements, which are described in the Inspections section of this semian-
    nual report.

    OIG also inspected several offices in the Department’s Bureau of Administration
    and the International Broadcasting Bureau’s Office of Engineering and Technical
    Services (IBB/E) at the BBG. The inspection of the Bureau of Administration’s


    Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
Office of Acquisitions Management (A/LM/AQM) and Office of the Procure-
ment Executive (A/OPE) observed that, despite the best efforts of their managers
and staff, the procurement function in the Department was approaching a crisis as
its workload had grown dramatically while staffing had remained relatively static. A
pilot program to move local guard contracting from overseas posts to A/LM/AQM
and other regional offices has already resulted in cost savings, and experience so far
indicates that worldwide savings could be in the millions of dollars.

OIG also reviewed and published reports on a wide range of management issues. In
the National Interest: Diplomatic Transformation on our Southern Border identified the need
for additional positions at border posts to allow them to focus on cross-border prob-
lems that have a direct impact on U.S. business interests, environmental safety, quality
of life, and border security between the United States and Mexico.

The Compliance Follow-up Review of the Inspection of the U.S. Section of the International
Boundary and Water Commission (USIBWC) concluded that since the original inspec-
tion in March 2005, USIBWC, under the Acting Commissioner, had conscientiously
and assertively complied with OIG recommendations and dramatically improved
the culture of the organization, although compliance had been hampered in several
instances by circumstances beyond the control of USIBWC and the Department.

A review of Inventory Controls for Nonexpendable Property at Embassy Beijing noted that
locally hired employees were aware of deficiencies in the embassy’s property manage-
ment system. Embassy senior management has placed a high priority on correcting
long-standing deficiencies, and actions taken and planned should significantly reduce
inventory shortages.

An OIG review of The Department of State’s Role in the Promotion of U.S. Business Interests
Abroad, undertaken in response to a request from the Committee on Small Business
of the U.S. House of Representatives, reviewed the Department’s support of U.S.
businesses seeking opportunities abroad, its cooperation with the Commerce Depart-
ment’s U.S. & Foreign Commercial Service (US&FCS) and other U.S. government
agencies that support U.S. investment and business activities abroad, and the promo-
tion of U.S. business interests by U.S. embassies and consulates that are not staffed
by US&FCS personnel. Since 2004, when OIG recommended that the Department
prepare a plan for staffing and supporting posts that do not have US&FCS officer
positions, the Department has improved the training and orientation of officers who
support the commercial function, communication and information technology links
between non-US&FCS posts and the US&FCS posts that support their efforts, and
the performance standards of non-US&FCS Partnership posts. However, strength-
ening of the commercial function remains a work in progress.



Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   
    Information Technology

    During this semiannual reporting period, OIG’s Office of Information Technology
    (OIG/IT) worked with the Office of Inspections as part of larger multidisciplinary
    teams inspecting posts in Kyiv, Minsk, Moscow, Vienna, and Warsaw, as well as of-
    fices within the Bureau of Administration, DS, and the BBG’s International Broad-
    casting Bureau. The teams evaluated information management and information
    security operations to assess their effectiveness; reviewed systems documentation
    such as system security plans, risk assessments, and certification and accreditation
    packages; and made recommendations to address identified issues and vulnerabilities.
    The issues identified during this cycle of inspections will be reassessed later this year
    during OIG’s next Federal Information Security Management Act review.



    Law Enforcement

    OIG’s Office of Investigations (OIG/INV) addresses allegations of waste, fraud,
    abuse, and mismanagement related to Department and BBG programs, investigates
    and reports to the Department of Justice possible violations of criminal law, and is
    committed to assisting each agency with preventing fraud. During this semiannual
    period, OIG conducted investigations in the areas of visa malfeasance and fraud,
    contract fraud, passport fraud, embezzlement, and employee misconduct that result-
    ed in five convictions and more than $1 million in fines and recoveries. In addition,
    OIG conducted a proactive initiative for the detection and elimination of fraudulent
    Federal Employees Compensation recipients from the Department. OIG identified
    instances where benefits were being paid to ineligible dependents and spouses, result-
    ing in cost avoidances of $270,000 during this reporting period.



    International Broadcasting

    During this reporting period, OIG conducted a review of the awards that BBG’s
    Middle East Broadcasting Networks, Inc. (MBN), made to three contractors to
    determine whether the awards, totaling about $9.3 million, were competed in compli-
    ance with OMB circulars as required by the grant agreement. OIG found that MBN
    did not compete awards to the three contractors reviewed or adequately document
    its procurement activities, although nothing came to OIG’s attention to indicate
    favoritism, fraud, or other procurement improprieties related to these awards. MBN


    Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
later developed a draft Corporate Policies and Procedures Manual, which requires contract
competition in compliance with OMB requirements and addresses many of the pro-
curement competition deficiencies noted in the report.

The audit of BBG’s financial statements resulted in an unqualified opinion on BBG’s
financial statements for FYs 2006 and 2005, but identified internal control weakness-
es relating to BBG’s payroll documentation, accounts receivable balance, property
records, undelivered orders, grants management, and government purchase cards and
instances of noncompliance with selected provisions of other applicable laws and
regulations involving BBG’s financial management systems.

An inspection of the IBB/E judged it to be a productive organization with an envi-
able reputation for responsiveness and accomplishment, but which was not getting as
much as it should from its capable staff. OIG noted that IBB/E should communi-
cate more effectively to internal and external audiences, involve its highly intelligent
employees in planning for the future, and value the management and leadership skills
among its supervisors.



Inspector General Activities

In October 2006, Inspector General Howard J. Krongard
participated in the International Intelligence Review
Agencies’ Conference on “Balancing National Security
and Constitutional Principles within a Democracy” in
Cape Town, South Africa. The Inspector General also
traveled with inspection teams to Havana, Cuba, and 		
Caracas, Venezuela, where he met with all agencies pres-
ent at the mission and others in the host country.
                                                                  Inspector General Krongard was welcomed by the
                                                                      local authorities in Maracaibo, Venezuela.
In his role as Chairman of the Board of External Audi-
tors of the Organization of American States (OAS), Inspector General Krongard
conducted the Board’s review which led to the issuance of the OAS 2006 audited
financial statements and the Board’s report which he presented to the Secretary Gen-
eral. As Inspector General of BBG, Inspector General Krongard attended a meeting
of the Broadcasting Board of Governors.

Inspector General Krongard addressed the President’s Council on Integrity and Ef-
ficiency on the work and challenges of being Inspector General at the Department
and the BBG. Among other foreign visitors, the Inspector General met with the
Chief Justice of the Supreme Court of Iraq.


Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007       

    Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
    CONGRESSIONAL ACTIVITIES AND OUTREACH




Testimony
During this reporting period, Inspector General Krongard testified before the House
Appropriations Subcommittee on State, Foreign Operations, and Related Programs
regarding audit and oversight activities related to Iraq; and before the House Armed
Services Committee during its hearing on audits of reconstruction and support ac-
tivities in Iraq.



Congressional Mandates and Requests
In response to legislative mandates and requests from Congress, OIG conducted the
following reviews during this semiannual period. Classified work undertaken at the
request of Congress is addressed in a separate classified annex to this semiannual
report.
•	 In response to a request from the House Committee on Small Business, OIG
   reviewed the Department’s support of U.S. businesses seeking overseas oppor-
   tunities and its cooperation with other U.S. Government agencies that support
   U.S. investment and business activities abroad. (ISP-I-07-21)
•	 As mandated by the National Defense Authorization Act for Fiscal Year
   2000, Public Law 106-65, Title XIV, Section 1402, OIG issued a review of the
   Department’s export controls. (AUD/IP-07-01)
•	 Also as mandated by the National Defense Authorization Act for Fiscal Year
   2000, Public Law 106-65, Title XIV, a joint review was conducted with the
   OIGs of the Departments of State, Commerce, Defense, Energy, and Home-
   land Security, and the Central Intelligence Agency to assess the effectiveness
   of the U.S. Government’s export control policies and practices with respect to
   preventing the transfer of sensitive U.S. technologies and technical informa-
   tion to China. The interagency review identified areas needing improvement to
   promote a more effective system of controls over exports to China.
•	 As mandated by the Chief Financial Officers Act of 1990, Public Law 101-576,
   as amended, OIG directed and monitored the following financial statement
   audits and other work conducted by an independent external auditor:


Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   
     	   o	 Independent Auditor’s Report on the Department of State’s FY 2006 & 	
         	 2005 Financial Statements (AUD/FM-07-12)
     	   o	 Independent Auditor’s Report on the Department of State’s Restated FY 	
         	 2006 & 2005 Financial Statements (AUD/FM-07-12A)
     	   o	 Agreed-Upon Procedures for Federal Intragovernmental Activity & 		
         	 Balances (AUD/FM-07-09)
     	   o	 Independent Auditor’s Report on the Department’s Special-Purpose Finan-	
         	 cial Statements (AUD/FM-07-10)
     	   o	 Audit Report on the International Cooperative Administrative Support 	
         	 Services’ 2005 & 2004 Financial Statements (AUD/FM-07-18)
     	   o	 Management Letter Related to the Audit Report on the International 		
         	 Cooperative Administrative Support Services’ 2005 & 2004 Financial State-	
         	 ments (AUD/FM-07-17)
     	   o	 Audit of the Broadcasting Board of Governors’ FY 2006 & 2005 Financial 	
         	 Statements (AUD/FM-07-08)
     	   o	 Management Letter Related to the Broadcasting Board of Governors’ 2006 	
         	 and 2005 Financial Statements (AUD/FM-07-07)

     OIG staff responded to inquiries or provided briefings to congressional staff on
     OIG work related to Iraq oversight, Department earmarks, Internet misuse, and
     reviews of Department contractors.



     Outreach and Media Assistance
     During this semiannual period, OIG responded to various media inquiries about
     work it performed and other related matters.

     Senior OIG officials made presentations to the Department’s Ambassadorial Semi-
     nars and A-100 Junior Officer classes and provided briefings to outgoing ambas-
     sadors and deputy chiefs of mission. OIG employees also made presentations to
     classes, seminars, briefings, and workshops, including Foreign Service Institute
     courses for financial management, human resources management, and administrative
     management officers.




10
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
Legislation Monitored
OIG reviewed and monitored the John Warner National Defense Authorization Act
for Fiscal Year 2007 (Public Law 109-364), which expanded oversight responsibilities
of the Special Inspector General for Iraq Reconstruction to include funds appropri-
ated for reconstruction in Fiscal Year 2006. OIG also reviewed and monitored the
Iraq Reconstruction Accountability Act of 2006 (Public Law 109-440), which subse-
quently amended Public Law 109-364 to extend the end-date for SIGIR.



Implementation of the Government Performance and
Results Act and the President’s Management Agenda

For each mission and bureau inspected, OIG reviews mission and bureau perfor-
mance plans and rightsizing issues. At the U.S. Mission to International Organiza-
tions in Vienna, the mission had requested, and the OIG team supported, the imme-
diate reinstatement of a public affairs officer position identified for elimination, to
avoid disruption of the mission’s crucial public diplomacy effort. OIG’s inspection
of Embassy Warsaw found they had placed considerable emphasis on rightsizing, but
budget cuts required further reductions.

OIG’s review In the National Interest: Diplomatic Transformation on our Southern Border,
found that to bring more coherence and organization to the border liaison process,
additional staff was needed to assist in responding to border incidents, participate in
the border liaison meetings, design public outreach programs, and report on the full
range of border issues. OIG recommended that Embassy Mexico City establish a
mid-level border affairs officer position at each of the five consulates located on the
border.

In its review of IBB/E, OIG found that the Information Technology Directorate
had no internal strategic plan, and BBG’s strategic plan for 2002-2007 included scant
information regarding technology goals for the Directorate. OIG recommended
that the office develop an annual strategic plan for the Information Technology
Directorate, aligned with the BBG’s strategic plan and the Engineering Performance
Plan, which includes specific, measurable steps toward agreed-upon goals that can be
discussed, funded, and periodically reviewed by managers.

The OIG survey of the Student Loan Repayment Program (SLRP) found that the
Department did not have performance measures needed to demonstrate the SLRP’s
impact on recruitment and retention, as required by the Government Performance



Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   11
     and Results Act of 1993, although the program was deemed by the Department to
     be a human capital success. OIG recommended that HR review management con-
     trols for SLRP in accordance with the FAM and develop performance measures in
     accordance with GPRA to ensure more effective operations of the Department’s
     SLRP.




12
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
U.S. Department of State
14
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                                            United States Department of State
                                            and the Broadcasting Board of Governors

                                            Inspector General




                                                    April 30, 2007


MEMORANDUM

TO:		         The Secretary

FROM:	        OIG – Howard J. Krongard

SUBJECT:	     Semiannual Report to Congress, October 1, 2006, to
		            March 31, 2007

I am pleased to transmit to you the Office of Inspector General’s (OIG)
Semiannual Report to the Congress for the period ending March 31. This report is
required by the Inspector General Act of 1978, as amended, and covers the work
of this office during the period indicated. The Act requires that you transmit the
report to the appropriate committees of the Congress by May 31, together with
any comments you may wish to make.

OIG activities during the reporting period focused on key issues affecting the
programs and operations of the Department and BBG, including Iraq/Afghanistan
oversight, financial management, protection of people and facilities, inspections
of overseas missions and domestic programs, and information technology. These
activities and our achievements are summarized in this report, along with the
required statistical data.
16
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                                         AUDITS




Iraq Oversight

Review of DynCorp International, LLC, Contract Number
S-LMAQM-04-C-0030, Task Order 0338, for the Iraqi
Police Training Program Support (AUD/IQO-07-20)

OIG and SIGIR jointly reviewed a $188.7-million contract task order that provided
civilian police training support in Iraq. The report concluded that poor contract
administration by INL and A/LM/AQM resulted in millions of dollars put at un-
necessary risk. About $36.4 million for weapons and equipment, including armored
vehicles, body armor, and communications equipment, could not be accounted for
because invoices were vague and there was insufficient backup documentation. The
contractor did not maintain a complete list of items procured or properly establish
property management policy guidance or accountability procedures.

The report also identified costs of $43.8 million for manufacturing and temporary
storage of a residential camp that had never been used. In addition, $4.2 million was
spent for unauthorized work associated with the residential camp.

INL and the contractor agreed to implement proper inventory controls and records
and to locate and control the $36.4 million of equipment procured under the task
order. In addition, the contracting officer was directed to seek contract reimburse-
ment for the $4.2 million of unauthorized work associated with the residential camp.
Lastly, INL was asked to present a plan to the U.S. Ambassador to Iraq for review
and approval on the use of the residential camp to house police trainers, as originally
intended, or make arrangements to dispose of the camp.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   17
     Financial Management

     Independent Auditor’s Report on the Department of
     State’s 2006 and 2005 Financial Statements 	
     (AUD/FM-07-12) and Independent Auditor’s Report on
     the Department of State’s Restated 2006 and 2005
     Financial Statements (AUD/FM-07-12A)

     At the November 15, 2006, deadline imposed by OMB for issuing audited financial
     statements, the independent external auditor retained by OIG was unable to express
     an opinion on the 2006 and restated 2005 financial statements. The Department was
     unable to provide complete financial statements or respond to requests for eviden-
     tial material in a timely manner, and the independent external auditor was not able
     to perform other auditing procedures to satisfy themselves as to the accuracy of the
     2006 and restated 2005 financial statements in time to meet the OMB deadline.

     During FY 2006, the Department became aware of material amounts of real prop-
     erty that had not been reported properly in its 2005 financial statements. As a result,
     the Department restated the 2005 balances and activity. The independent external
     auditor’s prior report on the 2005 financial statements should not be relied on.

     The Department later provided complete statements and adequate documentation to
     support the amounts reported. The independent external auditor satisfied themselves
     that the restated 2006 and 2005 financial statements were presented fairly, in all
     material respects, in conformity with accounting principles generally accepted in the
     United States. The independent external auditor did not report any material weak-
     nesses but did find reportable conditions on deficiencies in the Department’s internal
     controls and instances of noncompliance with selected provisions of applicable laws
     and regulations involving the Department’s financial management system and with
     financial systems, which did not substantially comply with the requirements of the
     Federal Financial Management Improvement Act (FFMIA) of 1996.




18
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
Independent Auditor’s Report on the Department’s
Special-Purpose Financial Statements (AUD/FM-07-10)

OIG engaged an independent external auditor to audit the Department’s reclassi-
fied balance sheet as of September 30, 2006, and the related reclassified statements
of net cost and changes in net position for the year then ended. As discussed
above, the independent external auditor was unable to express an opinion on the
Department’s 2006 and 2005 financial statements as of the November 15, 2006,
deadline imposed by OMB. The Department’s general-purpose financial statements
are the source of the amounts presented in the special-purpose financial statements;
thus the independent external auditor was not able to express, and did not express,
an opinion on the Department’s 2006 special-purpose financial statements. The
special-purpose financial statements are used by the Department of the Treasury to
prepare Governmentwide financial statements. Since restated or updated financial
information cannot be entered into Treasury’s on-line system following the deadline,
the independent external auditor did not perform any additional work in order to is-
sue an opinion on the special-purpose financial statements.



Independent Auditor’s Report on the Application of
Agreed-Upon Procedures for Federal Intragovernmental
Activity and Balances (AUD/FM-07-09)

Under OIG’s direction, an independent external auditor performed required pro-
cedures solely to support the process of eliminating FY 2006 intragovernmental
activity/balances. The independent external auditor determined whether the items
identified in the reconciliation schedule were properly recorded at year’s end, report-
ed differences due to nonreporting by trading partners, and identified and included
copies of audit findings related to this area. The independent external auditor noted
a material difference of $1,239,493,000 between the Department and the Depart-
ment of Defense, which was caused by Defense nonreporting. The Department
confirmed the amount reported. Defense indicated that it is limited in its ability to
track trading partner information due to a legacy system. The independent external
auditor did not note any other discrepancies.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   19
     Information Technology Vulnerability Assessment of
     the Regional Financial Management System 	
     (AUD/FM-07-13)

     OIG contracted with an independent external auditor to audit the Department’s
     2005 principal financial statements. OIG’s independent external auditor engaged a
     subcontractor to perform a vulnerability assessment of the Department’s Regional
     Financial Management System (RFMS). During its assessment, the subcontrac-
     tor found the physical security related to this application to be generally acceptable;
     however, it found that the overall security posture of RFMS needed improvement.
     The subcontractor identified weak and missing system- and application-level logging
     and also found that Windows Active Directory had not been fully implemented. In
     addition, the subcontractor recommended regular unrestricted automated vulnerabil-
     ity scans.



     Information Technology Vulnerability Assessment of
     the Integrated Logistics Management System 	
     (AUD/FM-07-06)

     OIG contracted with an independent external auditor to audit the Department’s
     2005 principal financial statements. OIG’s independent external auditor engaged a
     subcontractor to perform a vulnerability assessment of the Department’s Integrated
     Logistics Management System (ILMS). The subcontractor found the overall secu-
     rity posture of ILMS, including physical security, to be reasonable, but additional
     improvements were needed, including regularly performing unrestricted automated
     vulnerability scans.

     The Department had developed and documented formal operating procedures and
     guidelines for ILMS, including those related to access control, segregation of duties,
     incident response, and configuration/change management. Operating procedures
     and guidelines were adequate, but many remained untested. The subcontractor
     identified weaknesses related to unnecessary active services, untimely patching of ap-
     plications, and inappropriate default configurations and found that the Department
     had not fully implemented the Windows Active Directory. The subcontractor made
     recommendations to address these issues.




20
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
Audit of the International Cooperative Administrative
Support Services’ 2005 and 2004 Financial Statements
(AUD/FM-07-18)

The independent external auditor issued an unqualified opinion on International
Cooperative Administrative Support Services’ (ICASS) financial statements as of
September 30, 2005 and 2004. The independent external auditor brought to man-
agement’s attention concerns about the recording of personal property (including
related depreciation expenses and accumulated depreciation) and the Department’s
information system security, both of which were considered to be material weakness-
es. In addition, the independent external auditor noted that the Department’s finan-
cial and accounting system was inadequate, which was included as both a reportable
condition and an issue of noncompliance with several laws and regulations.



Management Letter Related to the Audit of the
International Cooperative Administrative Support
Services’ 2005 and 2004 Financial Statements 	
(AUD/FM-07-17)

During the audit of the ICASS 2005 and 2004 financial statements, the indepen-
dent external auditor identified an internal control weakness relating to timeliness
of ICASS’ financial reporting. The independent external auditor recommended that
ICASS take appropriate action to address this weakness. The independent external
auditor also identified general internal control weaknesses in the Department’s fi-
nancial management systems, which are used by ICASS for processing and recording
transactions and have an impact on ICASS. The general internal control weaknesses
were related to accounts receivable, overseas accounts payable, and the Anti-Defi-
ciency Act.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   21
     Contracts and Grants

     Review of the Institute of International Education’s
     Indirect Cost Rates for Fiscal Years 2002-2005 		
     (AUD/CG-07-25)

     At the request of the Bureau of Educational and Cultural Affairs (ECA), OIG con-
     ducted a review of the indirect costs reported by the Institute of International Edu-
     cation, Inc., and Affiliate (IIE) for fiscal years ending September 30, 2002 through
     2005. OIG’s primary purpose was to determine whether IIE’s indirect costs for the
     years reviewed complied with applicable federal laws and regulations. OIG found
     that IIE’s reporting of indirect costs did not comply with federal regulations and
     IIE’s internal organizational policy. Specifically, IIE was not following required ac-
     counting principles in reporting its severance costs, was making severance payments
     to current and former employees in excess of established organizational policy, and
     was including other unallowable costs in its indirect cost pools. As a result, OIG
     questioned indirect costs totaling $5,652,439 and direct costs totaling $176,244.

     OIG recommended that ECA require IIE to establish a consistent accounting ap-
     proach for reporting severance payments, identify additional severance overpayments
     for FYs 2002-2004, reimburse the Department for all overpayments related to sever-
     ance pay and other unallowable costs, adjust the indirect cost pools to exclude the
     unallowable costs, and recompute the indirect cost rates. Also, OIG recommended
     that A/LM/AQM negotiate and establish a final indirect cost rate agreement with
     IIE after IIE has taken the appropriate actions.



     Review of the Center for Cultural and Technical
     Interchange Between East and West, Inc.’s, Indirect
     Cost Rates for Fiscal Years 1999 Through 2005 	
     (AUD/CG-07-15)

     In coordination with A/LM/AQM, OIG conducted a review of the Center for
     Cultural and Technical Interchange Between East and West, Inc.’s, (East-West Cen-
     ter) indirect cost rates for the fiscal years ending September 30, 1999 through 2005.
     OIG’s objective was to provide recommended final rates for those seven years for
     reimbursing costs incurred under awards made to East-West Center by the Depart-
     ment.

22
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
OIG found that the indirect cost rates reported by the East-West Center in its annual
audit reports for the stated periods complied with applicable regulations. Moreover,
tracing components of the indirect cost rates to the audited financial statements
did not disclose any matters that significantly affected the indirect cost rates. OIG
recommended that A/LM/AQM use the recommended rates for purposes of de-
termining the final costs incurred by East-West Center during the fiscal years ended
September 30, 1999, through September 30, 2005, inclusive.

Further, under OMB Circular A-122, Cost Principles for Non-Profit Organizations, East-
West Center is required to submit indirect cost rate proposals to the Department
within six months after the close of each East-West Center fiscal year. For fiscal
years 1999 through 2005, inclusive, the East-West Center did not submit final indi-
rect cost proposal packages in accordance with the circular. OIG recommended that
A/LM/AQM require East-West Center to submit final indirect cost rate proposals
to the Department within six months after the close of each East-West Center fiscal
year.


Independent Accountant’s Report Agreed-Upon
Procedures on PAE Government Services, Inc., Invoices
Under Contract No. SLM-AQM-03-C0033, September 14,
2004, Through November 14, 2005 (AUD/CG-07-14)

OIG contracted with an independent external auditor to perform agreed-upon pro-
cedures on invoices submitted by PAE Government Services, Inc. (PAE), under De-
partment Contract No. SLM-AQM-03-C0033, for the period of September 14, 2004,
through November 14, 2005. The objective was to assist the Department in evalu-
ating the invoices under the contract’s terms and conditions and applicable federal
procurement regulations. Although the independent external auditor noted addition
errors in the cumulative totals on some invoices, these errors did not result in under-
billings or overbillings on individual invoices. Nonetheless, these errors could result
in the availability of contract funds being misstated. The independent external audi-
tor also found that the contractor overbilled for one position on an invoice; however,
the amount was not material. OIG recommended that the cognizant Department
contracting officer’s representative notify the contractor about the errors identified in
the invoices submitted under the contract and direct the contractor to make the ap-
propriate changes in its billing process to prevent similar errors on future invoices.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   23
     Agreed-Upon Procedures on Indirect Cost Rates
     Proposed by the National Endowment for Democracy
     (AUD/CG-07-02)

     As part of the overall audit of the National Endowment for Democracy (NED),
     OIG contracted with an independent external auditor to perform agreed-upon
     procedures on indirect cost rates submitted by NED for the years ended September
     30, 2004, and September 30, 2005. The objective was to provide recommended final
     rates for those two years for use in reimbursing costs incurred under awards made to
     NED by the Department. The independent external auditor took no exceptions to
     the proposed rates. The independent external auditor recommended that the Depart-
     ment use the proposed rates for purposes of determining the final costs incurred by
     NED during the years ended September 30, 2004, and September 30, 2005, under
     awards made by the Department to NED.



     Agreed-Upon Procedures on Indirect Cost Rates
     Proposed by the National Democratic Institute for
     International Affairs (AUD/CG-07-05)

     As part of the overall audit of NED, OIG contracted with an independent external
     auditor to perform agreed-upon procedures on indirect cost rates submitted by the
     National Democratic Institute for International Affairs (NDI) for the year ended 	
     September 30, 2005. The objective was to provide recommended final rates for that
     year for use in reimbursing costs incurred under awards made to NDI by the Depart-
     ment. The independent external auditor took no exceptions to the proposed rates.
     The independent external auditor recommended that the Department use the pro-
     posed rates for purposes of determining the final costs incurred by NDI during the
     year ended September 30, 2005, under awards made by the Department to NDI.




24
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
Agreed-Upon Procedures on Indirect Cost Rates
Proposed by the Center for International Private
Enterprise, Inc. (AUD/CG-07-04)

As part of the overall audit of NED, OIG contracted with an independent external
auditor to perform agreed-upon procedures on indirect cost rates submitted by the
Center for International Private Enterprise, Inc., (CIPE) for the years ended Septem-
ber 30, 2004, and September 30, 2005. The objective was to provide recommended
final rates for those two years for use in reimbursing costs incurred under awards
made to CIPE by the Department. The independent external auditor took no excep-
tions to the proposed rates. The independent external auditor recommended that
the Department use the proposed rates for purposes of determining the final costs
incurred by CIPE during the years ended September 30, 2004, and September 30,
2005, under awards made by the Department to CIPE.



Agreed-Upon Procedures on Indirect Cost Rates
Proposed by the International Republican Institute
(AUD/CG-07-03)

As part of the overall audit of the NED, OIG contracted with an independent exter-
nal auditor to perform agreed-upon procedures on indirect cost rates submitted by
the International Republican Institute (IRI) for the years ended September 30, 2004,
and September 30, 2005. The objective was to provide recommended final rates for
those two years for use in reimbursing costs incurred under awards made to IRI by
the Department. The independent external auditor took no exceptions to the pro-
posed rates. The independent external auditor recommended that the Department
use the proposed rates for purposes of determining the final costs incurred by IRI
during the years ended September 30, 2004, and September 30, 2005, under awards
made by the Department to IRI.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   25
     International Programs

     Review of Export Controls (AUD/IP-07-01)

     To respond to the National Defense Authorization Act reporting requirement for
     FY 2006, this review was part of an interagency effort, which included the OIGs for
     the Departments of State, Commerce, Defense, Energy, and Homeland Security, and
     the Central Intelligence Agency. The Department of State OIG was responsible for
     publishing and distributing the 2006 interagency report.

     This review assessed the effectiveness of the Department’s export control policies
     and practices with respect to preventing the transfer of sensitive U.S. technologies
     and technical information to the People’s Republic of China. The Bureau of Politi-
     cal-Military Affairs, Directorate of Defense Trade Controls (PM/DDTC) is charged
     with controlling the export and temporary import of defense articles and defense
     services covered by the U.S. Munitions List. It has among its primary missions tak-
     ing final action on license applications for defense trade exports and handling mat-
     ters related to defense trade compliance, enforcement, and reporting.

     OIG found that although PM/DDTC followed its policies and procedures before
     issuing a license, there were cases where its end-use checks, conducted either before
     or after issuing the licenses, resulted in “unfavorable determinations.” Unfavorable
     means that PM/DDTC found derogatory, incomplete, or inaccurate information in
     the license application or there was a violation of export control policies and proce-
     dures.

     OIG recommended that PM/DDTC reassess its licensing policies and procedures
     and report to OIG the changes it planned to make to reduce and eliminate unfavor-
     able postlicense end-use checks. OIG also recommended that PM/DDTC establish
     performance measures that detail the benchmarks and timeframes for reducing and
     eliminating unfavorable postlicense end-use checks.



     Opportunities to Improve the Department of State
     Student Loan Repayment Program (AUD/IP-07-19)

     OIG conducted a survey of the Student Loan Repayment Program (SLRP), which
     the Department identifies as an effective recruitment and retention tool. OIG found

26
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
that the Bureau of Human Resources (HR) did not have all of the necessary man-
agement controls to administer the program, as stipulated by Chapter 2 of the For-
eign Affairs Manual (FAM). For example, OIG found that HR managers could not
automatically identify the SLRP participants who had not complied with their service
agreements, nor could they automatically determine whether the Department had
received the correct amount of reimbursements owed. HR did not have performance
measures needed to demonstrate the SLRP’s impact on recruitment and retention,
as required by the Government Performance and Results Act (GPRA) of 1993,
although the program was deemed by the Department to be a human capital success.
OIG recommended that HR review management controls for SLRP in accordance
with the FAM and develop performance measures in accordance with GPRA to
ensure more effective operations of the Department’s SLRP.



Attestation Review of Annual Accounting of Drug
Control Funds by the Department of State 		
(AUD/IP-07-16)

OIG reviewed the FY 2005 detailed accounting submission to the Office of Nation-
al Drug Control Policy (ONDCP) Director by the Bureau of International Narcotics
and Law Enforcement Affairs (INL). INL’s Resource Management Office prepared
the submission in compliance with the ONDCP circular, Annual Accounting of
Drug Control Funds, dated April 18, 2003. OIG conducted its review in accordance
with attestation standards established by the American Institute of Certified Public
Accountants as specified in Section 7 of the ONDCP circular. As the scope of a
review is substantially less than an examination, which expresses an opinion on the
submission, OIG did not express such an opinion. No matters came to OIG’s atten-
tion that caused OIG to believe that the assertions did not, in all material aspects, re-
liably represent the FY 2005 obligation data presented in the accounting submission.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   27
     Security and Intelligence

     Audit of Emergency Preparedness at the Washington
     Metropolitan Facilities of the Department of State	
     (AUD/SI-07-27)

     OIG audited the Emergency Preparedness Program at the Department’s Washing-
     ton, DC, metropolitan facilities to determine whether it had a program that complied
     with federal regulations and had developed and distributed plans for each facility
     to all personnel. The Department had a program that was not fully implemented.
     It had not clearly defined specific roles and responsibilities, developed policies and
     procedures to guide the program, or complied with all related federal regulations and
     directives.

     Additionally, the Department had not effectively implemented its Facility Emergency
     Action Plans at all Washington metropolitan facilities. Specifically, the plans were
     either nonexistent or were outdated or noncompliant. Lastly, not all Washington, DC,
     metropolitan area facilities had emergency escape route signage and markings. This
     shortcoming was highlighted during the September 11, 2001, terrorist attack on the
     Pentagon.

     OIG recommended, among other things, that the Department clearly define and
     codify the roles and responsibilities of bureaus and offices involved in the Emer-
     gency Preparedness Program, establish policies and procedures, comply with federal
     regulations and directives, establish Facility Emergency Action Plans, and install ap-
     propriate escape route signage and markings at all Washington facilities.




28
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                                   INSPECTIONS




AFGHANISTAN PROGRAM REVIEW

Interagency Assessment of Afghanistan Police Training
and Readiness (ISP-IQO-07-07)

An interagency assessment of the Afghanistan Police Training and Readiness Pro-
gram, conducted jointly with the Department of Defense OIG, judged that the U.S.-
funded program to train and equip the Afghan National Police (ANP) was generally
well conceived and well executed. However, long-term U.S. and international assis-
tance and funding, at least beyond 2010, will be required to institutionalize the police
force and establish a self-sustaining program. Obstacles to establishing a fully pro-
fessional ANP included no effective field training officer program, illiterate recruits,
a history of low pay and pervasive corruption, and an insecure environment.

Building the ANP requires a comprehensive, integrated approach that encompasses
leadership training, sustaining institutions and organizations, and oversight and inter-
nal control mechanisms. In addition, building an effective ANP program will require
a long-term commitment from coalition and international partners. Premature with-
drawal from this commitment will compromise the progress already accomplished
and put at risk the U.S. goal to establish a professional police force embracing the
values and practices of community policing and the rule of law.

Until the Afghan criminal justice system, including law enforcement, judiciary, and
corrections, has matured and is synchronized and coordinated from the national to
the local level such that laws are standardized and uniformly applied, the ANP will
function more as a security force than as a law enforcement organization.

Management of the police training contract was problematic and required more
effective coordination between Department contract managers and the Combined
Security Transition Command-Afghanistan, which is responsible for executing ANP
training programs. The procurement pipeline to Afghanistan for ANP equipment



Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   29
     was slow, but was improving. There was inadequate accountability for equipment
     after it was turned over to the ANP, because the ANP logistics system was not yet ef-
     fective. The ANP needed to establish and implement an effective end-to-end inter-
     nal controls process.



     DOMESTIC

               In the National Interest: Diplomatic Transformation
                       on our Southern Border (ISP-I-07-02)
              Cross-border problems have a direct impact on U.S. business
              interests, environmental safety, quality of life, and border security.
              The U.S. embassy in Mexico and the Bureau of Western Hemi-
              sphere Affairs emphasize border issues in their strategic plans.
              However, neither has dedicated sufficient staff or attention to the
              coordination of those issues. Border posts need additional posi-
              tions to allow them to focus on solving the problems.

              With looming increases in consular workload and in demands on
              consular resources over the next five years, there is a need to
              address nonconsular issues and their priority in the operations of
              the border posts. If nonconsular issues are not properly managed
              now, it will be impossible to do so once the wave of U.S. passport
              and nonimmigrant visa applications hits the border.

              The decision to assign regional security officers to each border
              consulate has improved the security of the consulates and en-
              hanced the coordination of cross-border law enforcement issues
              that in turn affect bilateral commercial development.




     Compliance Follow-up Review of the Inspection of the
     U.S. Section of the International Boundary and Water
     Commission (ISP-C-07-04)

     OIG conducted a compliance follow-up review (CFR) of the U.S. Section of the
     International Boundary and Water Commission (USIBWC). The original inspection
     report, issued March 2005, contained 22 recommendations. The CFR determined

30
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
that USIBWC, under the Acting Commissioner, has conscientiously and assertively
complied with OIG’s recommendations for which it had responsibility. Moreover,
it has acted on OIG’s informal recommendations and dramatically improved the
culture of the organization. Compliance has been hampered in several instances by
circumstances beyond the control of USIBWC and the Department.

The CFR made a recommendation that the Department seek legislation making
USIBWC an entity of the Department. The CFR also made three recommendations
to improve USIBWC’s security.



Inspection of the Bureau of Diplomatic Security,
Directorate for Training, Office of Training and
Performance Support (ISP-I-07-05)

OIG found the Bureau of Diplomatic Security’s Office of Training and Performance
Support (TPS) was well managed and generally successful in meeting the bureau’s
training goals. New training requirements for all U.S. government employees as-
signed to Iraq and Afghanistan had placed enormous stress on TPS’s administrative
and financial infrastructure. The office had done a commendable job of maintaining
its highest priority programs during a time of budget uncertainty, but several core
training programs had not kept pace with ongoing equipment acquisition and opera-
tional needs. TPS had also outgrown its current office space at its Northern Virginia
facilities, was rapidly reaching maximum capacity at facilities in West Virginia, and
needed better facilities for technical security training programs.



Inspection of the Bureau of Administration’s Office
of the Procurement Executive, Office of Acquisitions
Management, and Office of Small and Disadvantaged
Business Utilization (ISP-I-07-12)

The procurement function in the Department was approaching a crisis, despite
the best efforts of managers and staff in the Bureau of Administration’s Office of
Acquisitions Management (A/LM/AQM) and Office of the Procurement Executive
(A/OPE). The acquisition and federal assistance workload has grown dramatically in
the past five years in dollars and complexity, but the professional contracting staffing
has remained relatively static.



Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   31
     A/OPE provides policy guidance and support on contracting and federal assistance
     to Department employees worldwide. In response to critical weaknesses in overseas
     procurement identified in the early 1990s, A/OPE has focused much of its energy
     on overseas procurement activities. It now needs to turn its attention to 		
     A/LM/AQM, where 80 percent of the Department’s contracting dollars are spent.

     A/LM/AQM was struggling to keep pace with an ever-increasing workload, made
     more complex by a proliferation of changes in the policies and regulations that gov-
     ern the federal acquisition process. Acquiring additional staff to meet these require-
     ments has become a problem because the pool of qualified federal procurement spe-
     cialists has dwindled in recent years. There is also great pressure on A/LM/AQM
     to award building contracts expeditiously, and A/LM/AQM has repeatedly risen to
     the occasion. The amount of money involved — $2.4 billion in FY 2005 — calls for
     care and prudence in the contracting process.

     Few areas of procurement call so obviously for reform as local guard contracting,
     estimated to cost the Department approximately $218 million. Budgetary pressures
     appear to be forcing change, and the cost savings could total millions of dollars if
     contracting is done by A/LM/AQM rather than by individual posts overseas (see
     sidebar).


              Potential Cost Savings for Local Guard Contracting
             A/OPE, DS, and A/LM/AQM have implemented a pilot program to
             move local guard contracting from individual posts to A/LM/AQM
             and other regional offices, as appropriate. At the time of the in-
             spection, six local guard contracts had been awarded by 		
             A/LM/AQM. Cost savings have already resulted, and experience
             so far indicates that worldwide savings could be in the millions of
             dollars. A/LM/AQM contracting officers have unlimited contracting
             authority and are in a position to solicit offers for more than one
             post, thereby creating economies of scale. Furthermore, A/LM/
             AQM has the capability to award multiple, large-scale contracts
             using individual task orders for local guard programs in specific
             countries. Overall contract management also needs to improve.
             The number of contract modifications, averaging 1,500 a year,
             could be reduced; expensive, short-term contract extensions could
             be minimized; and multi-country contracts could be awarded. OIG
             recommended that the Department establish a plan to progres-
             sively consolidate local guard contracting in A/LM/AQM.




32
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
The Department of State’s Role in the Promotion of U.S.
Business Interests Abroad (ISP-I-07-22)

In response to a request from the House Committee on Small Business, OIG re-
viewed the Department’s support of U.S. businesses seeking opportunities abroad as
well as the its cooperation with the Commerce Department’s U.S. & Foreign Com-
mercial Service (US&FCS) and other U.S. government agencies that support U.S.
investment and business activities abroad. The review focused primarily on the role
of the Bureau of Economic, Energy, and Business Affairs’ (EEB) Office of Com-
mercial and Business Affairs and the promotion of U.S. business interests by U.S.
embassies and consulates that are not staffed by US&FCS personnel.

Since 2004, when OIG formally recommended that EEB prepare a plan for staff-
ing and supporting posts that do not have US&FCS officer positions, there has been
steady progress toward the goal of strengthening what had previously often been ad
hoc management of the commercial function at many U.S. embassies and consulates.
The Department had improved the training and orientation of officers who support
the commercial function, communication between non-US&FCS posts and US&FCS
posts that support their efforts, and the performance standards of non-US&FCS
Partnership posts. The Department had also collaborated with the US&FCS to
improve information technology links between US&FCS and non-US&FCS posts.
However, strengthening of the commercial function remains a work in progress.
There are a number of areas where EBB’s planning had not yet reached the imple-
mentation stage and where recommended procedural changes could improve perfor-
mance.



OVERSEAS MISSIONS

Inspection of Embassy Warsaw and Consulate General
Krakow, Poland (ISP-I-07-01A)

Embassy Warsaw skillfully managed U.S.-Polish relations, which had entered a deli-
cate stage since Poland’s formation of a coalition government that includes partners
from its minority parties. The mission was successfully maintaining traditionally
close and cooperative relations with Poland while reaffirming U.S. positions of prin-
ciple. Leadership of the mission was effective in conducting relations with Poland.


Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   33
     There were deficiencies with the consulate general building in Krakow, as identi-
     fied in OIG’s inspection report on Embassy Warsaw five years ago. The Bureau of
     Overseas Buildings Operations (OBO) plans to begin construction of a new office
     building in FY 2008, and this plan must be implemented as a matter of urgency.

     The consular renovation project at Embassy Warsaw was funded but lagged because
     of conflicting assignment of responsibilities between the Department of State’s
     Washington, DC, headquarters and the embassy. OBO in Washington needed to
     appoint a single project director with overall responsibility and a site construction
     manager to oversee implementation.


                   BEST PRACTICE: Pre-positioning of MK1 Nerve Agent	
                   Injector Kits
                   Issue: An ample supply of MK1 nerve agent injector kits is
                   needed to protect embassy employees in case of a chemi-
                   cal/biological attack.

                   Response: Embassy Warsaw has pre-positioned an ample
                   supply of MK1 nerve agent injector kits in unlocked but
                   sealed wall cabinets that are strategically located through-
                   out the chancery and annex buildings. A large laminated
                   card written in English and Polish is affixed to the front of
                   the cabinet and has photos of the injector and its use and
                   some instructions and symptoms indicating levels of expo-
                   sure to a nerve agent. In some cases, Quick 2000 chemi-
                   cal-biological escape hood respirators are placed on top of
                   the cabinets.

                   Result: The embassy has better protected its employees.




     Inspection of Embassy Minsk, Belarus (ISP-I-07-13A)

     Under the direction of the Ambassador and deputy chief of mission, Embassy
     Minsk’s political/economic section and public affairs section are deeply engaged in
     supporting Belarusian groups struggling to bring democracy and respect for human
     rights to the last Soviet-style dictatorship in Europe.



34
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
The chancery is slated for a long-delayed renovation and expansion, but it will occur
no earlier than FY 2008. OIG inspection reports in 1994 and 2002 noted problems
with the building. Those problems have not been resolved. The building, located
next door to the Russian Embassy and occupied for decades by Soviet troops, is
overcrowded and dysfunctional.

The public affairs section has a vibrant outreach program that presents positive
information on the United States. Its grants program helps sustain the Belarusian
independent media. Twelve American Corners provide a window on America in all
major population centers.




Inspection of Embassy Moscow, Russia, & Constituent
Posts (ISP-I-07-15A)

Embassy Moscow has been influential in improving the tone of bilateral relations
and the degree of access to Russian Government policymakers, despite the continu-
ing policy disputes between Russia and the United States. The Ambassador has
astutely focused Washington policymakers’ attention on areas where the U.S. and
Russian Governments can find common ground.

The Ambassador has made public diplomacy a missionwide priority. The public
affairs section is implementing every public diplomacy tool to support the effort,
including innovative use of its 32 American Corners and American Centers.

The Ambassador values close interagency cooperation and is determined to stream-
line a mission that has grown too large. So far, most reductions have affected only
Department offices. To continue this rightsizing, other agencies will also need to
reduce staffing. Security-driven restrictions on the use of Russian national employ-
ees force the Department to use cleared American staff for many jobs normally per-
formed by Foreign Service nationals, creating extra layers of administrative process-
ing and increasing operating costs. Nonetheless, management operations are very
well run, providing good support.

The embassy produces an impressive volume of valued, quality economic and politi-
cal work, but a growing number of positions in these areas are filled by entry-level
officers who arrive without sufficient language or tradecraft training, forcing the mis-
sion to divert resources from production to internal training. The embassy, however,
runs an excellent immersion language training program.



Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   35
              BEST PRACTICE: Russian language immersion program
              Issue: Officers do not always have the necessary language
              skills to work effectively in Russia, particularly on sensitive policy
              issues. The embassy also has hired eligible family members to
              work in areas requiring excellent language skills.

              Response: In 2000, the embassy began using the training facili-
              ties of a Russian institute located in the city of Tver, about 100
              miles from Moscow. Students stay with Russian families — im-
              mersion training at its best. Students attend the program for
              one week to two months, depending on language need and the
              amount of time they can be away from their work. The program
              is funded with a grant ($130,000 in FY 2006) from the Foreign
              Service Institute, supplemented by embassy funds. Because the
              Foreign Service Institute only provides a maximum of 24 weeks of
              language training to entry-level officers, this program helps bring
              them up to the level required to do their jobs.

              Result: The program has trained between 26 and 38 people an-
              nually, a total of about 145 since its inception. This program is so
              highly regarded that 11 Foreign Service Institute students have
              paid their own way to Tver to take supplemental training. The
              benefits of the training are universally applauded.




     Inspection of Embassy Kyiv, Ukraine (ISP-I-07-17A)

     Embassy Kyiv has strong leadership, with a complex set of goals and representation
     by a number of U.S. Government agencies. The embassy has a keen understand-
     ing of the complicated and rapidly evolving political and economic situation in the
     Ukraine and good working relations across the political spectrum. Its commentary
     on such issues as the evolving state of Ukraine’s relations with the European Union,
     North Atlantic Treaty Organization, and Russia was extensive, timely, and well ap-
     preciated by Washington end-users.

     A new embassy compound was scheduled to be constructed on land that was pur-
     chased during the inspection visit. Although the post needed a full-time fraud
     prevention manager to meet a rising rate of increasingly sophisticated visa fraud, it
     otherwise had adequate American staffing. Staffing levels should be examined, as
     all units plan to colocate into the new embassy compound; therefore, some staffing
     reductions should be feasible.

36
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
Inspection of Embassy Vienna, Austria (ISP-I-07-18A)

Embassy Vienna is a well-managed mission that has maintained a close focus on
overlapping counterterrorism issues. The Ambassador has moved Embassy Vienna
toward more efficient operations by employing new communication technology for
more effective, less costly telephone service and initiating a management efficiency
committee to identify ways to streamline operations. OIG found a best practice
involving the use of taxi credit cards to reduce the use of vehicles in the motor pool
and cut costs.

Embassy Vienna pursues a broad public diplomacy program with active involvement
by the Ambassador, who has placed a high priority on the expansion of academic
exchanges. The embassy’s electronic information outreach program is robust.



            BEST PRACTICE: Taxi Credit Card
            Issue: Several years ago Embassy Vienna’s joint manage-
            ment office reduced the size of the motor pool by reducing
            the number of drivers and vehicles. Consequently, some
            Foreign Service officers and other officials were not provided
            with sufficient transportation for official business.

            Response: The joint management office contracted with a
            taxi company and issued taxi credit cards for each section’s
            exclusive use. The passenger gets and signs a receipt for
            each trip and the receipts are used for end-of-the-month
            reconciliation with the embassy’s bill. The cards include
            relevant telephone numbers, and the operator is requested
            to send a “cab charge taxi.” The waiting time is about three
            to five minutes; often less time than the waiting time for a
            motor pool vehicle dispatched from the motor pool garage.
            The operator will also respond to requests for first class cars
            for representational needs and for English-speaking drivers.

            Result: Using the taxi service is quick, convenient, and
            efficient. The cost savings are approximately $300,000 to
            $500,000 annually.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   37
     Inspection of U.S. Mission to the Organization for
     Security and Cooperation in Europe (ISP-I-07-19A)

     The Ambassador, deputy chief of mission, and other staff of the U.S. Mission to the
     Organization for Security and Cooperation in Europe (USOSCE) were carrying out
     the important work of multilateral diplomacy to promote democratic development,
     human rights, conflict resolution, and monitoring of arms control agreements in the
     still problematic Eurasian region. USOSCE’s ability to maintain an activist role on
     behalf of democratic transitions, human rights, and conflict prevention in Central
     Asia and Southeastern Europe will be determined by the level of funding the U.S.
     government provides to USOSCE. However, continued funding of USOSCE at
     adequate levels and its sources of future funding was in question.

     USOSCE cannot carry out its mission effectively if it undergoes further staffing cuts.
     The expanded use of interns and eligible family members could help the mission
     manage its heavy workload.



     Inspection of the U.S. Mission to International
     Organizations in Vienna (ISP-I-07-20A)

     The U.S. Mission to International Organizations in Vienna (UNVIE) had effectively
     worked to advance a key U.S. national security objective, preventing the spread of
     dangerous weapons and technologies. The mission successfully secured, in February
     2006, reporting to the United Nations Security Council by the International Atomic
     Energy Agency Board of Governors of Iran’s failure to abide by its nuclear safe-
     guards program, long a major U.S. objective.

     UNVIE pursued an aggressive public diplomacy program to address key mission
     themes with a variety of international and Austrian audiences. OIG identified a best
     practice that improved the justification, management, and evaluation of public diplo-
     macy programs. The Department recently designated the post’s public affairs officer
     (PAO) position for elimination in 2007. Reinstatement of this position is necessary
     for the continued success of UNVIE’s public diplomacy mission.




38
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
           BEST PRACTICE: Public Diplomacy Proposal Assess-
           ment Chart
           Issue: UNVIE runs a very active public diplomacy program
           geared to promoting U.S. positions on high-priority issues.
           Public diplomacy program opportunities often appear on very
           short notice, and an evaluation of the program’s merit against
           Mission Performance Plan priorities, available resources, and
           other program commitments is not always easy.

           Response: Drawing on a functional assessment model used
           by the PAO in the private sector, the mission developed what
           it calls the “ABC chart” for evaluating all elements of a public
           diplomacy program proposal, from the concept through final
           evaluation. Evaluation criteria include the audience profile (A);
           audience behavioral goals, such as better understanding of an
           issue (B); and program content (C). The criteria also include
           Mission Performance Plan theme justification, resource re-
           quirements, and post-program evaluation. The ABC chart
           provides a one-page overview of each program initiative that is
           valuable in the mission’s assessment of Mission Performance
           Plan performance.

           Result: The Ambassador and the entire mission have adopted
           the ABC chart as an evaluation tool for maintaining a focused
           and efficient public diplomacy program. The chart has helped
           the mission prioritize its public diplomacy efforts and make
           most effective use of limited human and budgetary public
           diplomacy resources.




Inventory Controls for Nonexpendable Property at
Embassy Beijing (ISP-I-07-06)

Over the years, Embassy Beijing administrative personnel responsible for property
management have often lacked experience, had competing responsibilities that lim-
ited their attentiveness to problems, and perhaps most importantly, were not held ac-
countable by their American supervisors. Much, if not most, of the post’s inventory
shortages are likely due to poor inventory records. Yet the possibility of substantial
theft cannot be dismissed.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   39
     Embassy senior management has firmly placed a high priority on correcting long-
     standing property management deficiencies. Actions taken and planned should sig-
     nificantly reduce inventory shortages, and a new administrative team has the experi-
     ence and commitment to get the job done.



     Review of Contracting Allegations at Embassy The
     Hague, The Netherlands (ISP-I-07-10)

     OIG reviewed the award process for Embassy The Hague’s packing and shipping
     services contract (S-NL 800-06-R-0001), awarded in August 2006. The review de-
     termined that the contract was awarded to an offeror whose proposal did not meet
     all of the technical standards specified in the solicitation. Furthermore, three of-
     ferors’ proposals were improperly disqualified, resulting in the award of the contract
     to other than the lowest bidder. The contracting officer did not provide the techni-
     cal evaluation panel with adequate instructions about its responsibilities, and actions
     taken by the panel could have been the result of misunderstanding about the “lowest
     price technically acceptable” evaluation process that was to be used in the solicitation
     evaluation. Errors in the contract evaluation process were also not identified prior to
     contract award.




40
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                    INFORMATION TECHNOLOGY




During this semiannual reporting period, the Office of Information Technology
(OIG/IT) worked with the Office of Inspections as part of larger multidisciplinary
teams inspecting posts in Kyiv, Minsk, Moscow, Vienna, and Warsaw. Domestically,
OIG/IT inspected offices within the Department’s Bureaus of Administration and
Diplomatic Security, and the International Broadcasting Bureau of the Broadcast-
ing Board of Governors. Information management and information security op-
erations were evaluated to assess their effectiveness. The teams reviewed systems
documentation such as system security plans, risk assessments, and certification and
accreditation packages as part of each inspection. These efforts identified missing or
inadequate systems documentation, including standard operating procedures, security
plans, contingency plans, and mission-specific strategic plans and life cycle manage-
ment plans. Further, they identified inconsistencies in website content management
and in the performance of information systems security officer duties

As a result, a number of issues requiring attention and action by the Department
were identified, resulting in recommendations for corrective action. These included,
but were not limited to, increased information management staffing, change control
management for hardware and software deployment, and consistent helpdesk sup-
port, including standardizing procedures for supporting users requests and the usage
of the Department’s helpdesk ticket system. OIG recommendations prompted
the Department to respond with several actions to correct deficiencies noted in the
evaluation and inspection reports, including initiatives for disseminating additional
information on standardizing the helpdesk process, revising procedures for change
control board requests, and discussions regarding standardization and regionalization
of IT support services. OIG recommendations also have resulted in improvements
being initiated in the Information Systems Security Officer program.

The issues identified during this cycle of inspections will be used as supporting docu-
mentation and will be reassessed during OIG’s next Federal Information Security
Management Act review of the Department, scheduled to begin later in 2007.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   41
42
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                                INVESTIGATIONS




VISA MALFEASANCE OR FRAUD
OIG’s Office of Investigations (OIG/INV) conducted an investigation based upon
information developed during another visa fraud investigation that an immigration
attorney had requested a gas station owner to sponsor foreign workers through his
gas station, knowing the workers would never be employed there. The employer
provided falsified payroll stubs to the Department of Homeland Security to falsely
indicate that the workers were employed at the gas station. The falsified pay stubs
were provided on behalf of seven foreign workers, some for as long as two years, in
exchange for money from the immigration attorney.

As a result of the investigation, the immigration attorney pleaded guilty to a one-
count criminal information charging him with making false statements. On Novem-
ber 3, 2006, the immigration attorney was sentenced in U.S. District Court for the
Eastern District of Virginia to four months of incarceration, four months of com-
munity confinement, and two years of supervised release.



CONTRACT FRAUD OR IRREGLARITIES
OIG/INV assisted the Bureau of Diplomatic Security in conducting an investiga-
tion into allegations that a Department contract vendor sold used equipment as new
equipment that did not work properly. The equipment in question was sent back to
the contract vendor for replacement or repair, which was not completed. On No-
vember 14, 2006, after OIG/INV conducted interviews with the contract vendor, the
replacement equipment was delivered by the vendor to OIG for subsequent return to
DS. The replacement equipment was valued at $583,500.



EMBEZZLEMENT
OIG/INV conducted an investigation into allegations that a Department employee
embezzled $48,300 through travel advances she obtained in the names of several
authorized travelers without their permission or consent. When interviewed, the
employee confessed to the embezzlement. However, OIG/INV’s investigation, with



Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   43
     the assistance of the Office of Audit and Department officials, determined that the
     employee actually embezzled over $103,000 through the travel advance scheme. On
     July 17, 2006, DS suspended the subject’s security clearance. On December 20, 2006,
     the subject officially resigned from her position at the Department. On January 8,
     2007, the subject pleaded guilty in U.S. District Court for the District of Columbia
     to one count of embezzlement. Sentencing was pending at the end of this reporting
     period.



     FALSE CLAIMS
     OIG/INV conducted a joint investigation with the Department of Housing and
     Urban Development OIG into allegations that a Department of State employee
     committed Section 8 rental assistance fraud by underreporting her income, falsifying
     employment documents, and altering her wage statements to qualify for the housing
     subsidy. When interviewed, the employee confessed to the allegations and admitted
     to also underreporting her income to receive Food Stamps, Medicaid, and temporary
     assistance for needy families. On November 9, 2006, the employee’s security clear-
     ance was suspended. The employee resigned from the Department on December 1,
     2006. Prosecution was pending at the end of this reporting period.



     EMPLOYEE MISCONDUCT
     OIG/INV conducted a joint investigation with DS concerning five Foreign Service
     national (FSN) employees from U.S. Embassy Addis Ababa, Ethiopia, who aban-
     doned their positions after they obtained nonimmigrant visas to attend training
     and/or take vacation in the United States. The FSNs did not return to Ethiopia,
     but received cash advances, traveler’s checks, and round-trip airline tickets from the
     embassy.

     The case was referred to the Civil Division of the U.S. Attorney’s Office in Washing-
     ton, D.C., which initiated civil action against the five former employees, all of whom
     are now residing in the United States. On January 25, 2007, OIG was notified that
     one of the former FSNs repaid $8,216.45 in money owed to the embassy at the time
     he abandoned his position. To date, the Justice Department civil actions against the
     other four FSN employees have not been successful.




44
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
PASSPORT FRAUD
As part of the Passport Sentinel initiative, OIG/INV conducted two separate inves-
tigations of private citizens in California who fraudulently obtained valid U.S. pass-
ports using false identities established under the names and social security numbers
of deceased infants. Joint investigations on the two cases were conducted with DS.
Both defendants were sentenced. One received 36 months probation, and the other
received 24 months probation.



WORKER’S COMPENSATION PROGRAM INITIATIVE
OIG/INV continues to conduct a proactive initiative for the detection and elimina-
tion of fraudulent Federal Employees Compensation recipients from the Depart-
ment. As part of its initiative, OIG reviewed files at the Department of Labor,
Office of Worker’s Compensation Program (OWCP), Cleveland District Office,
of deceased Department employees whose spouses, children, and dependents (i.e.,
those family members that were supported financially by the deceased employee)
were continuing to receive benefits from OWCP.

As of November 2006, OIG/INV identified four instances where benefits were be-
ing paid to ineligible dependents and spouses. Benefits were found to have been paid
to widows who either had remarried before the age of 55 or who were deceased, and
to children who no longer attended school or who had reached the age of 22. In all,
the cost avoidance totaled $270,000.



FOLLOW-UP ACTIONS
OIG/INV conducted an investigation of two Department timekeepers who con-
spired to fraudulently claim overtime by forging their supervisors’ signatures on
time-and-attendance certifications and by entering false information into the Depart-
ment’s computerized time-and-attendance system. Over several years, the two time-
keepers submitted approximately $100,000 in fraudulent overtime claims. On Jan-	
uary 4, 2006, the Bureau of Human Resources proposed that one of the timekeepers
be terminated from employment. The other timekeeper resigned from employment
shortly afterward.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   45
     After their cases were referred to the U.S. Attorney’s Office, Eastern District of
     Virginia, one of the timekeepers pleaded guilty to the scheme. On May 12, 2006, she
     was sentenced in U.S. District Court to five months of confinement, two years of
     supervised release, and restitution in the amount of $96,000.

     The second timekeeper pleaded guilty and on March 23, 2007, was sentenced to nine
     months of home detention with electronic monitoring and three years of supervised
     release. She was also ordered to pay $96,319.79 in restitution. (See OIG Semi-An-
     nual Report, April 1, 2006, to September 30, 2006, pp 49)



     Types of Cases




46
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
Hotline		
Held for action within OIG	            52
Referral to other offices for action	 141
No action necessary	                   75
Total hotline contacts received	268




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   47
48
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES



      Criminal Investigative Activities
      Indictments/Informations							                  2	
      Convictions									                             3
      Sentencings									                             4
      -	     Jail							                      17 Months
      - 	 Probation						                    120 Months
      Referrals for Prosecution							                  7
      Referrals for Prosecution Declined						10
      Criminal Judgments/Restitutions				     $96,319.79

      Civil Investigative Activities
      Civil Referrals									          1
      Civil Declinations								        1
      Civil Recoveries						    $8,216.45

      Administrative Investigative Activities
      Administrative Referrals							                                          5
      Personnel Actions
      -	      Removals								                                                 2
      -	      Suspensions								                                              1
      -	      Reprimands/Admonishments						                                   1
      -	      Reimbursements					                                  		          4
      Administrative Recoveries					                                $ 854,412.07
      Total Investigative Recoveries (Judicial and Administrative) $ 958,948.31	

      Investigative Workload
      Cases Pending as of 09/30/06							56
      New Cases Opened								21
      Cases Closed									14
      Cases Pending as of 03/31/07							63
      Preliminary Inquiries Pending as of 09/30/06				 5
      Preliminary Inquiries Opened							14
      Preliminary Inquiries Closed							              9
      Preliminary Inquiries Converted to Cases					    3
      Preliminary Inquiries Pending as of 03/31/07				 7



      Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   49
50
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                  APPENDIX 2: REPORTS ISSUED



	   	    	        	       	        	        AUDITS
AUD/IP-07-01               Review of Export Controls

AUD/CG-07-02              Agreed-Upon Procedures on Indirect Cost Rates Proposed 	
			                       by the National Endowment for Democracy

AUD/CG-07-03              Agreed-Upon Procedures on Indirect Cost Rates Proposed 	
			                       by the International Republican Institute

AUD/CG-07-04              Agreed-Upon Procedures on Indirect Cost Rates Proposed 	
			                       by the Center for International Private Enterprise, Inc.

AUD/CG-07-05              Agreed-Upon Procedures on Indirect Cost Rates Proposed 	
			                       by National Democratic Institute for International Affairs

AUD/FM-07-06              Information Technology Vulnerability Assessment of the 	
			                       Integrated Logistics Management System

AUD/FM-07-09              Independent Auditor’s Report on the Application of 		
			                       Agreed-Upon Procedures for Federal Intragovernmental 	
			                       Activity & Balances

AUD/FM-07-10              Independent Auditor’s Report on the Department’s 		
			                       Special-Purpose Financial Statements

AUD/FM-07-12              Independent Auditor’s Report on the Department of State’s 	
			                       FY 2006 & 2005 Financial Statements

AUD/FM-07-12A             Independent Auditor’s Report on the Department of State’s 	
			                       Restated FY 2006 & 2005 Financial Statements

AUD/FM-07-13              Information Technology Vulnerability Assessment of the 	
			                       Regional Financial Management System

AUD/CG-07-14              Independent Accountant’s Report Agreed-Upon Proce	
			                       dures on PAE Government Services, Inc. Invoices Under 	
			                       Contract No. SLM-AQM-03-C0033, September 14, 2004 	
			                       through November 14, 2005



Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   51
     AUD/CG-07-15	             Review of the Center for Cultural and Technical Inter-		
     			                       change Between East and West, Inc.’s, Indirect Cost Rates 		
     			                       for Fiscal Years 1999 through 2005

     AUD/IP-07-16              Independent Attestation Review of Annual Accounting of 		
     				                      Drug Control Funds by the Department of State

     AUD/FM-07-17              Management Letter Related to the Audit Report on the 		
     			                       International Cooperative Administrative Support Ser-		
     			                       vices’ FY 2005 & 2004 Financial Statements

     AUD/FM-07-18              Audit of the International Cooperative Administrative 		
     			                       Support Services’ FY 2005 & 2004 Financial Statements

     AUD/IP-07-19              Opportunities to Improve the Department of State Student 		
     				                      Loan Repayment Program

     AUD/IQO-07-20             Review of DynCorp International, LLC, Contract 			
     			                       Number S-LMAQM-04-C-0030, Task Order 0338, for the 		
     			                       Iraqi Police Training Program Support

     AUD/CG-07-25	             Review of the Institute of International Education’s Indirect 	
     			                       Cost Rates for Fiscal Years 2002-05

     AUD/SI-07-27	             Audit of Emergency Preparedness at the Washington 		
     			                       Metropolitan Facilities of the Department of State

     	   	    	       	        	        INSPECTIONS

     ISP-I-07-01A             	Inspection of Embassy Warsaw & Consulate General 		
     			                       Krakow, Poland

     ISP-I-07-02               	In the National Interest: Diplomatic Transformation on our 	
     			                        Southern Border

     ISP-C-07-04              	 Compliance Follow-Up Review of the Inspection of the 		
     			                        U.S. Section of the International Boundary & Water 		
     			                        Commission

     ISP-I-07-05              	 Bureau of Diplomatic Security, Directorate for Training, 		
     			                        Office of Training & Performance Support


52
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
ISP-I-07-06                	 Inventory Controls for Nonexpendable Property at 			
			                          Embassy Beijing

ISP-IQO-07-07               Interagency Assessment of Afghanistan Police Training 		
			                         & Readiness

ISP-I-07-10               	 Review of Contracting Allegations at Embassy The Hague, 		
			                         The Netherlands

ISP-I-07-12               	 Bureau of Administration’s Office of the Procurement 		
			                         Executive, Office of Acquisitions Management, & Office of 	
			                         Small & Disadvantaged Business Utilization

ISP-I-07-13A		              Inspection of Embassy Minsk, Belarus

ISP-I-07-15A		              Inspection of Embassy Moscow, Russia, and Constituent 		
			                         Posts

ISP-I-07-17A         	      Inspection of Embassy Kyiv, Ukraine

ISP-I-07-18A		              Inspection of Embassy Vienna, Austria

ISP-I-07-19A          	     Inspection of the U.S. Mission to the Organization for 		
			                         Security and Cooperation in Europe

ISP-I-07-20A		              Inspection of the U.S. Mission to International Organi-		
				                        zations in Vienna

ISP-I-07-22                 The Department of State’s Role in the Promotion of U.S. 		
			                         Business Interests Abroad
      				
      				                         SECURITY ANNEXES


ISP-S-07-01A              	 Classified Annex to the Inspection of Embassy Warsaw & 		
			                         Consulate General Krakow, Poland

ISP-S-07-13A		              Classified Annex to the Inspection of Embassy Minsk, 		
			                         Belarus

ISP-S-07-15A		              Classified Annex to the Inspection of Embassy Moscow, 		
			                         Russia, & Constituent Posts


Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   53
     ISP-S-07-17A            	 Classified Annex to the Inspection of Embassy Kyiv, 		
     			                       Ukraine

     ISP-S-07-18A		            Classified Annex to the Inspections of Embassy Vienna, 		
     			                       Austria, U.S. Mission to the Organization for Security 		
     			                       & Cooperation in Europe, & U.S. Mission to International 		
     			                       Organizations in Vienna, Austria




54
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES

       					                                                Table 1
       			 INSPECTOR GENERAL ISSUED AUDIT REPORTS
       				       WITH QUESTIONED COSTS	
                                                  (Dollars in Thousands)
       				                                                                   	   				
       						
           	                                                Number
                                                            of Reports	           Question Costs   Unsupported Costs	
       A.      For which no management
               decision has been made by the
       	       commencement of the reporting period	24	27,279	13,027	
       	
       B.	 Which were issued during
       	   the reporting period				                             2	10,028	                                     0	   	

       	   Subtotals (A + B)			                       26	 37,307	 13,027	
       						
       C.	 For which a management
       	   decision was made during the
       	   reporting period based on	2	5,198	53	
       	   formal administrative or judicial appeal 			
       	   (i) dollar value of disallowed costs	      1	     644	     0		
       	   (ii) dollar value of costs not disallowed	 1	   4,554	     0 	
       	
       D.	 For which no management
       	   decision has been made by the
       	   end of the reporting period	24	32,109	12,974	

       E.	 Reports for which no management
       	   decision was made within 6 months
       	   of issuance	24	27,279	13,027	                                                                               	
       					                                                Table 2
       			                           INSPECTOR GENERAL ISSUED AUDIT REPORTS
       	                	     WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
       						                                    Number			    Dollar Value	
       						                                    of Reports		 (in thousands)
       A.	 For which no management
                                    								
           decision has been made by the
       	
           commencement of the reporting period	6		45,488

       B.	 Which were issued during the reporting period.	                0		 0
                                                                                		
           Subtotals (A + B)                                              6		45,488
       	                    	
                                                      	
       C.	 For which a management decision was
                                              					
           made during the reporting period	    0		 0
       	
       	 (i) dollar value of recommendations that				 	
       		were agreed to by management					
       	       	-based on proposed management action	                     0		 0		
       	       -based on proposed legislative action	                     0		45,488	
       	       	(ii) dollar value of recommendations
               that were not agreed to by management                      0
       	                                                	                  	                             0	
       D.	 For which no management decision		
       	       has been made by the end of the
       	       reporting period	6	                                45,488
       E.      Reports for which no management
           	                                   				
               decision was made within 6 months of issuance  3   29,886
                                                            	   	        	
       						
      Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007                    55
56
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS

      	

      Section 5 (a)(3) of the Inspector General Act, as amended, requires identification
      of each significant recommendation described in previous semiannual reports that
      the Department has agreed to implement but for which corrective action has not yet
      been completed. OIG continues to work with the Department toward completion of
      the corrective actions required on these recommendations.



      			               Significant Recommendations Pending Final Action
      Report 	          Rec.					
      Number 	          Number 		 Title				                                                 Date Issued
      Inspections
      ISP-I-06-33	     12	 Inspection of Global Financial Services – Charleston 		
                       										                                              06/2006
                               OIG recommended that RM review the differences in the Fund
                               Balance with Treasury Accounts, reconcile the differences from
                               prior fiscal years, and report the changes to the Treasury. This
                               recommendation is in resolved/open status. The Department has
                               developed a plan to address this issue and is working to implement
                               the recommendation.
      Audits

      AUD/CG-02-44	       1	 Awards to the Iraqi National Congress	                     	      10/2002
                               	OIG recommended that the A/ALM/AQM grants officer, in
                                coordination with the Bureau of Near Eastern Affairs, should	
                                withhold, or at least restrict, future funding to the Iraqi National
                                Congress Support Foundation until the Foundation has implement-
                                ed adequate and transparent financial controls.
      AUD/CG-04-31	       1	   Application of Agreed-Upon Procedures on Indirect
                               Cost Rates Proposed by National Council for      			
                     		        International Visitors (NCIV) 			           				  6//2004
                     		
                               OIG recommended that a Department of State, Bureau of
                               Administration, Office of Acquisition grants officer require NCIV
                               to exclude such unallowable costs from its future indirect cost
                               proposals. OIG recommended, further, that the grant officer en-
                               sure that NCIV adjust its cumulative cost reporting.




      Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   57
     AUD/CG-04-33        1	     Review of World Relief Corporation Indirect Cost Rates for 		
                   	            Fiscal Year 2002	      	         			                07/2004
       										
     	    OIG recommended that the Bureau of Administration’s 		
     	    Office of Logistics Management, Office of Acquisitions Manage		
     	    ment’s grant officer (1) require the World Relief Corporation to 		
     	    comply with the Office of Management and Budget Circular A-		
     	122 by submitting an annual indirect cost rate proposal within the
        	 required timeframe; (2) finalize the World Relief Corporation’s 		
     	    indirect cost rates for FY 2002, using the recommended rates,
       	  and; (3) require the World Relief Corporation to make necessary 		
     	    accounting adjustments.

     AUD/FM-05-06	        1	 Assessment of the Certification and Accreditation, 			
     		                         Change Management, and Patch Management 			
     		                         Process   		        				                 12/2004		
     												
     		 OIG recommended that the Bureau of Information Resource		
     		                         Management revise the security test and evaluation of the			
     		                         certification and accreditation process to include a complete
       		                       vulnerability scan of the systems being assessed.
       	
     AUD/CG-05-28	            1	 Review of the Lutheran Immigration and Refugee Service’s 	
                                 Reception and Placement Program          		       6/2005 	
                                 										
                                OIG recommended that the PRM grants officer require the 	
                                Lutheran Immigration and Refugee Service and its subrecipients
                                to (1) reimburse the Department for unallowable costs totaling
                                $48,000 and (2) provide any additional supporting documentation
                                to the Department so that an appropriate determination can be
                                made regarding unsupported costs totaling $606,000.		
           		
     AUD/PP-06-08  1	 Independent Accountant’s Report on the Application of			
                 	    Agreed-Upon Procedures Relating to Bureau of Information 		
               	      Resource Management Enterprise Network Management 		
               	      Office GSA-FEDSIM Millenia Contract Task Order 			
               	      GS-T004AJM049	         				                          04/2006		
               											
               	      OIG recommended that the Executive Director, Bureau 			
                   	            of Information Resource Management, in cooperation with the 		
                   	            Director, Bureau of Administration, Office of Logistics Manage-		
                   	            ment, Office of Acquisitions Management, independently procure 		
                   	            the required Enterprise Network Management effort rather than 		
                   	            renew the FEDSIM Millenia Contract Task Order 				
                   	            GS-T0004AJM049.



58
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
AUD/CG-06-26   1		 Choctaw Archiving Enterprise’s Proposed Direct Labor		
              		 and Indirect Labor Rates	     	             	      05/2006


                          OIG recommended that the Department’s Bureau of
                          Administration, Office of Logistics Management,
                          Office of Acquisitions Management use the recommended
                          rates set forth in Schedule A-2 to price delivery orders that
                          Choctaw will perform under the proposed contract.




 Significant Management Success in Resolving and Implementing
                      Recommendations

Review of Middle East Partnership Initiative Coordination and Implementa-
tion (ISP-I-06-18, Issued March 2006)

In its review of Middle East Partnership Initiative Coordination and Implementa-
tion, OIG recommended that the Bureau of Near Eastern Affairs provide appropri-
ate training for grants officer representatives and establish procedures to ensure that
officers having Middle East Partnership Initiative responsibilities are briefed on these
responsibilities before taking up their overseas assignments. In response to OIG’s
recommendations, the Office of the Middle East Partnership Initiative in the Bu-
reau of Near Eastern Affairs (NEA/PI) has asked its regional offices in Tunis and
Abu Dhabi to help identify those officers who will be grants officer representatives
for NEA/PI-funded or post-funded grants. NEA/PI will invite those officers for
consultations and training prior to their departures for post. Also, NEA has pre-
sented sessions related to grants management in area studies programs at the Foreign
Service Institute, and at regional offices in Abu Dhabi and Tunis for Embassy staff
with MEPI responsibilities.


Inspection of Global Financial Services – Charleston (ISP-I-06-33, Issued
June 2006)

In its inspection, OIG recommended that the Department train and designate as
certifying officers employees who are performing certifying officer duties domesti-
cally. The Department responded by having a Treasury Officer train all Bureau of
Resource Management personnel in need of training on certifying officer duties — a
total of 55. Twenty-two of these personnel have been designated as certifying of-
ficers. The bureau plans to provide additional training to staff as the need arises.


Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   59
     OIG also recommended that Department perform a full-scale, multi-location audit
     of the payroll procedures for Department employees in Baghdad. The Bureau of
     Resource Management responded by implementing procedures for biweekly review
     of payments made to Baghdad employees to ensure compliance with Department
     regulations and procedures.




60
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
Broadcasting Board of Governors
62
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                                              United States Department of State
                                              and the Broadcasting Board of Governors

                                              Inspector General



						                                        April 30, 2007

MEMORANDUM

TO:		          Mr. Kenneth Y. Tomlinson, Chairman
		             Broadcasting Board of Governors

FROM:	         OIG – Howard J. Krongard
		             Inspector General

SUBJECT:	      Semiannual Report to Congress, October 1, 2006,
               to March 31, 2007


I am pleased to transmit to you the Office of Inspector General’s (OIG)
Semiannual Report to the Congress for the period ending March 31. This report is
required by the Inspector General Act of 1978, as amended, and covers the work
of this office during the period indicated. The Act requires that you transmit the
report to the appropriate committees of the Congress by May 31, together with
any comments you may wish to make.

During this reporting period, OIG reviewed the awards the Middle East
Broadcasting Networks, Inc. (MBN) made to three contractors to determine
whether the awards, totaling about $9.3 million, were competed in compliance
with OMB circulars, as required by the grant agreement between BBG and MBN.
OIG also audited the BBG’s FY 2006 and 2005 Financial Statements.

This and other activities are summarized in this report.
64
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                                         AUDITS




Independent Auditor’s Report on the Review of Middle
East Broadcasting Networks, Inc., Awards to Three
Contractors (AUD/IB-07-26)

At the request of the BBG Executive Director, OIG reviewed the awards the Middle
East Broadcasting Networks, Inc. (MBN), made to three contractors to determine
whether the awards, totaling about $9.3 million, were competed in compliance with
OMB circulars as required by the grant agreement between BBG and MBN. OIG
found that MBN did not compete awards to the three contractors reviewed or
adequately document its procurement activities. Awards made to two of the three
contractors lacked adequate justification for sole-source selection, and awards made
to the third contractor had initial competition, but subsequent contracts were not
properly competed. MBN’s noncompliance with OMB circulars occurred, in part,
because it wrongly believed that it did not have to strictly comply with circular re-
quirements.

During the review, nothing came to OIG’s attention to indicate favoritism, fraud, or
other procurement improprieties related to these awards. At the time of the awards,
MBN did not have formal procurement policies and procedures. MBN later devel-
oped a draft Corporate Policies and Procedures Manual, which requires contract competi-
tion in compliance with OMB requirements and addresses many of the procurement
competition deficiencies noted in the report. Additionally, OIG made general obser-
vations about MBN’s overall procurement process, which resulted in several infor-
mal suggestions.



Audit of the Broadcasting Board of Governors’ FY 2006
and 2005 Financial Statements (AUD/FM-07-08) and
Management Letter Related to the Broadcasting Board
of Governors’ FY 2006 and 2005 Financial Statements
(AUD/FM-07-07)

The independent external auditor issued an unqualified opinion on BBG’s financial
statements as of September 30, 2006 and 2005, and for the years then ended. The


Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   65
     auditor did not report any material weaknesses but brought to management’s atten-
     tion two reportable conditions related to internal control and instances of noncom-
     pliance with selected provisions of other applicable laws and regulations involving
     BBG’s financial management systems.

     Under generally accepted auditing standards, auditors performing financial statement
     audits are encouraged to report, in a separate management letter, internal control
     weaknesses that do not rise to the level necessary to be reported in the financial
     statement opinion. During the audit of the BBG’s 2006 and 2005 financial state-
     ments, the independent external auditor identified internal control weaknesses relat-
     ing to BBG’s payroll documentation, accounts receivable balance, property records,
     undelivered orders, grants management, and government purchase cards and instanc-
     es of noncompliance with selected provisions of applicable laws and regulations that
     were identified during the audit. The auditor recommended that BBG take appropri-
     ate action to address these weaknesses.




66
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                                   INSPECTIONS




Inspection of the International Broadcasting Bureau’s
Office of Engineering and Technical Services 			
(ISP-IB-07-03)

The Office of Engineering and Technical                   Best Practice: Telecommuting
Services (IBB/E) in the BBG’s International               Issue: Every organization needs to attract
Broadcasting Bureau was judged to be a                    and retain a qualified workforce. Many
productive organization. Although it was no               organizations have adopted telecommut-
longer the technological leader that it was in            ing policies, which allow employees to
the heyday of shortwave, IBB/E had an envi-               work at home and facilitate employment
                                                          for persons otherwise unable to work.
able reputation for responsiveness and accom-
                                                          IBB/E depends heavily on a maturing,
plishment. Although IBB/E faced difficulties,             highly skilled workforce. In many cases,
many of them were not of its making. None-                an IBB/E employee is the unique specialist
theless, IBB/E should communicate more                    in his or her area.
effectively to internal and external audiences,
involve its highly intelligent employees in 	             Response: IBB/E has created a telecom-
                                                          muting program and has allowed wide
planning for the future, and value the man-               participation in it. The program has en-
agement and leadership skills among its 	                 sured that telecommuting employees have
supervisors. Plans and strategies should be               robust access to their workplace computer
followed and benchmarked.                                 files.

After years of budget cuts, and with retire-       Result: IBB/E can complete projects with
ments looming, workforce planning needed to        fewer interruptions because of employee
                                                   absences. More than 70 out of the 172
be a priority. The use of frequent but unpre-
                                                   authorized positions in its headquarters
dictable waivers of IBB’s seemingly endless        are participating in the telecommuting
hiring freeze had sown confusion at IBB/E          program. IBB/E is said to be able to retain
about the staffing plan. Staff training and the    employees who might not otherwise be
award program needed BBG management’s              able to work there. Employees describe
attention. In addition, IBB/E lagged behind        IBB/E as a family-friendly workplace, are
many competitors in its use of such media          more content, and have better morale.
as the Internet and television and needed the
resources and mandate to help the agency catch up. Too often IBB/E’s talented
engineers were given solutions to implement, instead of being challenged with
problems to solve. The organization was not getting as much as it should from its
capable staff.



Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   67
68
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                               INVESTIGATIONS




EMBEZZLEMENT
OIG/INV conducted an investigation concerning unusually high telephone charges
that were placed from an official telephone at the BBG. A total of 137 telephone
calls were made at a cost to the BBG of $49,818 (commercial rate). The investigation
traced the calls to a BBG employee, who admitted to making the calls. OIG/INV
contacted the telephone service carrier, who advised that the government rate was
not stipulated by the Department at time of the new service agreement. As a result,
the 137 telephone calls were billed at the commercial rate rather than the govern-
ment rate. Because of the error, the telephone service carrier informed OIG that
they were willing to retroactively reduce the telephone charges to reflect government
contract prices.

As a result of the investigation, the recalculation of charges reduced the loss to the
government from $49,818 to $972. OIG/INV requested an audit and adjustment
of all telephone bills under the related BBG account. The audit found that BBG
was overcharged a total of $96,407 by AT&T, which was subsequently recovered by
BBG.

On November 10, 2006, the BBG employee was terminated from employment. On
July 14, 2006, the BBG employee was arrested and charged in the District of Colum-
bia Superior Court with one count of Second Degree Theft. On March 20, 2007,
the defendant entered into a pretrial diversion agreement.




CONFLICT OF INTEREST
OIG/INV conducted a joint investigation with the Federal Bureau of Investiga-
tion into allegations of possible kickbacks being received by a BBG employee from
two vendors. The employee was interviewed and confessed to improperly receiv-
ing payments from two vendors and knowing that it was a conflict of interest. On
November 16, 2006, the employee was indicted on one count of conflict of interest
and three counts of making false statements. He was arrested the next day and was
placed on indefinite suspension without pay pending the outcome of the case.




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   69
     On February 13, 2007, the subject pleaded guilty to the conflict of interest charge,
     admitting that he knowingly and willfully received unauthorized payments from the
     vendors of approximately $112,000. Sentencing was pending at the end of this
     reporting period.




70
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS INVESTIGATIVE
                        ACTIVITIES



        Investigative Workload		                                                      Number

        Pending as of 09/30/06		5
        New Cases Opened		1
        Cases Closed		1
        Cases Pending as of 03/31/07		5
        Preliminary Inquiries Pending as of 09/30/06		1
        Preliminary Inquiries Opened		2
        Preliminary Inquiries Closed		2
        Preliminary Inquiries Converted to Cases		     0
        Preliminary Inquiries Pending as of 03/31/07		1

        Total Judicial Actions		                                                      6

        Prosecutive Referrals		      0
        Prosecutive Declination		1
        Criminal Indictment/Arrest		2
        Criminal Conviction		2
        Criminal Sentencing		1
        Time Sentenced		             0 Months
        Time Probation		             0 Months
        Court Ordered Fine		         $0
        Court Ordered Restitution		  $0

        Administrative Investigative Activities	
        Personnel Actions
        	 - Referral		1
        	 - Removals		1
        	 - Suspensions		              0
        	 - Reprimands/Admonishments		 0
        	 - Reimbursements		           0
        	 - Administrative Recovery		  $96,407.06

        Total Investigative Recoveries (Judicial and Administrative)	 $96,407.06
        						




       Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   71
72
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                  APPENDIX 2: REPORTS ISSUED




	   	    	        	       	        	        AUDITS
AUD/FM-07-07	             Management Letter Related to the Broadcasting Board of 		
				                      Governors’ FY 2006 and 2005 Financial Statements

AUD/FM-07-08              Audit of the Broadcasting Board of Governors’ FY 2006 & 		
				                      2005 Financial Statements

AUD/IB-07-26	             Independent Auditor’s Report on the Review of Middle East 		
				                      Broadcasting Networks, Inc., Awards to Three Contractors



	   	    	        	       	            INSPECTIONS
ISP-IB-07-03             	Inspection of the International Broadcasting Bureau’s Office 		
				                      of Engineering & Technical Services




Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   73
74
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
APPENDIX 3: SAVINGS & MORE EFFECTIVE USE OF RESOURCES

     					            Table 1
     			 INSPECTOR GENERAL ISSUED AUDIT REPORTS
     				                               WITH QUESTIONED COSTS
     				                                   (Dollars in Thousands)
     					                                        Number		        Questioned	        Unsupported    		
     					                                        of Reports	     Costs		            Cost
     A.	 For which no management
     	   decision has been made by
     	   the commencement of the
     	   reporting period			                      0		             0			                      0
     B.	 Which were issued during
     	   the reporting period			                  0		             0			                      0
     	     Subtotals (A+B)			                     0		             0			                      0
     C.	   For which a management
     	     decision was made during
     	     the report period – based on
     	     formal administrative or judicial
     	     appeal
     	     (i) dollar value or disallowed		          0		          0			                      0
     	     (ii) dollar value of costs not disallowed	0		          0			                      0		
     D.	 For which no management
     	   decision has been made by the
     	   end of the reporting period		            0		             0			                      0
     E. Reports for which no
     	  management decision was made
     	  within 6 months of issuance		             0		             0			                      0	
     					                                        Table 2
     			      INSPECTOR GENERAL ISSUED AUDIT REPORTS
     		 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
     	                                  Numbers	   	 Dollar Value
     		 of Reports	                                  (in thousands)
     A.	 For which no management decision has
     	 been made by the recommendations of the
     	 reporting period.	                                         0			0
     B.	 Which were issued during the reporting
     	 period	                                                    0			0
     	 Subtotals (A+B)	                         0		  0		
     			
     C.	 For which a management decision was
     	 made during the reporting period	        0			0	
     	 (i) dollar value of recommendations that
     	 were agreed to by management             0    0
     	 –based on proposed management action	      			 		
     		–based on proposed legislative action						
     	 (ii) dollar value of recommendations
     	 that were not agreed to by management		  0			 0
     D.	 For which no management decision was
     	     made within 6 months of issuance			                    0			                      0

     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   75
76
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                        LIST OF ABBREVIATIONS




     A/LM/AQM		                        Bureau of Administration, Office of Acquisitions
                                       Management
     ANP		                             Afghan National Police
     A/OPE		                           Bureau of Administration, Office of the
                                       Procurement Executive
     BBG		                             Broadcasting Board of Governors
     CFO		                             Chief Financial Officers
     CFR		                             Compliance Follow-up Review
     CIPE		                            Center for International Private Enterprise, Inc.
     Department		                      Department of State
     DS		                              Bureau of Diplomatic Security
     East-West Center		                Center for Cultural and Technical Interchnage
                                       Between East and West, Inc.
     ECA		                             Bureau of Educational and Cultural Affairs
     EEB		                             Bureau of Economic, Energy, and Business
     FAM		                             Foreign Affairs Manual
     FFMIA		                           Federal Financial Management Improvement Act
     FSN		                             Foreign Service national
     HR		                              Bureau of Human Resources
     IBB/E		                           Office of Engineering and Technical Services,
                                       International Broadcasting Bureau
     ICASS		                           International Cooperative Administrative Support
                                       Service
     IIE		                             Institute of International Education
     ILMS		                            Integrated Logistics Management System
     INL		                             Bureau of International Narcotics and Law
                                       Enforcement Affairs
     IRI		                             International Republican Institute
     ISSO		                            Information Systems Security Officer
     MBN		                             Middle East Broadcasting Networks, Inc.



Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007   77
         NEA/PI		                          Office of the Middle East Partnership Initiative,
                                           Bureau of Near Eastern Affairs
         NCIV		                            National Council for International Visitors
         NDI		                             National Democratic Institute for International
                                           Affairs
         NED		                             National Endowment for Democracy
         OAS		                             Organization of American States
         OBO		                             Bureau of Overseas Buildings Operations
         OIG		                             Office of Inspector General
         OIG/INV		                         Office of Inspector General, Office of
                                           Investigations
         OIG/ISP		                         Office of Inspector General, Office of Inspections
         OIG/IT		                          Office of Inspector General, Office of
                                           Information Technology
         OMB		                             Office of Management and Budget
         ONDCP		                           Office of the National Drug Control Policy
         OWCP		                            Office of Worker’s Compensation Program
         PAO		                             Public Affairs Officer
         PM/DDTC		                         Bureau of Political-Military Affairs, Directorate of
                                           Defense Trade Controls
         RM		                              Bureau of Resource Management
         RMFS		                            Regional Financial Management System
         SIGIR		                           Special Inspector General for Iraq Reconstruction
         SLRP		                            Student Loan Repayment Program
         TPS		                             Office of Training and Performance Support
         US&FCS		                          U.S. & Foreign Commercial Service
         USIBWC		                          U.S. Section of the International Boundary and
                                           Water Commission
         USOSCE		                          U.S. Mission to the Organization for Security and
                                           Cooperation in Europe
         UNVIE		                           U.S. Mission to International Organizations in
                                           Vienna




78
     Office of Inspector General Semiannual Report to the Congress, October 1, 2006, to March 31, 2007
                       INDEX OF REPORTING REQUIREMENTS
                   INSPECTOR GENERAL ACT OF 1978, AS AMENDED
	

REQUIREMENT	         SUBJECT	    	                                    	P AGE NUMBERS

Section 4(a)(2)	     Review of legislation and regulations	      		       11	
Section 5(a)(1)	     Significant problems, abuses, and deficiencies		17-41, 65-67
Section 5(a)(2)	     Significant recommendations for corrective action	 17-41, 65-67
Section 5(a)(3)	     Prior significant recommendations unimplemented	 57-58	
Section 5(a)(4)	     Matters referred to prosecutive authorities	 	       43-49, 69-71
Section 5(a)(5)	     Information or assistance refused		 none	
Section 5(a)(6)	     List of reports issued		51-54, 73,
Section 5(a)(7)	     Summaries of significant reports	                    17-40, 65-67
Section 5(a)(8)	     Audit reports–questioned costs		55, 75	
Section 5(a)(9)	     Audit reports–funds to be put to better use		        55, 75	
Section 5(a)(10)	 Prior audit reports unresolved				 55,75	
Section 5(a)(11)	 Significant revised management decisions				 none	
Section 5(a)(12)	 Significant management decisions with which 	
		                   OIG disagreed				 none
